HHS/OIG, Audit -"Review of Subaward Costs Claimed by Roger Williams Hospital on
NIH Grant Number 5 P01 HL56920-05 From February 1, 2001, Through August 31, 2002,"(A-01-05-01504)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Subaward Costs Claimed by Roger
Williams Hospital on NIH Grant Number 5 P01 HL56920-05 From February 1, 2001, Through August
31, 2002," (A-01-05-01504)
February 27, 2006
Complete
Text of Report is available in PDF format (529 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether subaward costs claimed by Roger Williams Hospital
(the Hospital) under the University of Massachusetts Medical School (UMMS) prime grant no.1
PO1 HL56920-05 from the National Institutes of Health (NIH) were allowable under the terms
of the subaward and applicable Federal regulations.  We identified $55,746 in costs
that did not comply with Federal regulations and subaward terms. Of this total, $53,655 was
in unallowable cost transfers and related fringe and indirect costs and $2,091 was in unsupported
animal care charges and related indirect costs.  We recommended that the Hospital (i)
comply with Federal requirements for ensuring that cost transfers are adequately explained
and documented and (ii) revise its procedures to ensure that animal care charges can be identified
to a specific project or account.  Because the Hospital received its funds through a
subaward from UMMS rather than directly from NIH, we will recommend under separate cover
that UMMS reimburse NIH for unallowable subaward costs totaling $55,746.  The Hospital
has initiated actions to comply with the reports recommendations.